NO.

IN THE
SUPREME COURT OF THE UNITED STATES
TJ CAIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE
I hereby certify as follows:
1.

I am an Assistant Federal Public Defender for the Districts of Colorado

and Wyoming, and I was appointed to represent the petitioner TJ Cain pursuant to
the Criminal Justice Act of 1964, see 18 U.S.C. ยง 3006A.
2.

On September 3, 2020, in compliance with Supreme Court Rule

29.5(b), copies of the accompanying Motion for Leave to Proceed In Forma Pauperis
and Petition for a Writ of Certiorari were sent by email and Federal Express, nextday delivery, to:
1

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
3.

All parties required to be served have been served.
/s/ Kathleen Shen
KATHLEEN SHEN
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
kathleen_shen@fd.org

2

